  Inspector General Semiannual Report
            To Congress and
         Management Response


               For the Period
    April 1, 2001 to September 30, 2001



The three components of the Semiannual Report are available
by selecting below:


  - Inspector General Semiannual Report to Congress

  - FY 2001 OIG Performance Measures

  - Management Response to the IG Semiannual Report
                      Securities and Exchange
                           Commission

                             Office of Inspector General


                                         Executive Summary
During this reporting period (April 1 to September 30, 2001) the Office of Inspector General
(Office) issued eight audit reports, two investigative memorandum on management issues, and
three memoranda on special projects. These documents focused on compliance examination
referrals; disclosure comment letter follow-up; real property leasing; security of personnel files;
staff and contractor background investigations; broker dealer registration; administrative
controls in the Salt Lake District Office; Intranet website content; the public transportation
subsidy program; information technology (IT) decision-making; assessment of IT risks; and our
response under the Government Information Security Reform Act. The Audit Program and
Special Projects sections below describe this work further.
Nine investigations were closed during the period. Eight subjects were referred to the
Commission; four cases were referred to the Department of Justice. During the period, two
subjects resigned and one received a reprimand. In addition, three subjects (two referred in a
prior period) were counseled. Five subjects, referred to Commission management during this
and prior periods, are awaiting disposition. The Investigation Program section below describes
the significant cases further.
In a prior period, we reported controls over disgorgement1 waivers as a significant problem,
based on an audit. The Division of Enforcement has taken actions to improve the waiver
process. It has issued written procedures on waivers and is using an external database to check
information in waiver requests. It also hired a contractor to identify further improvements in its
waiver procedures.
We also previously reported the safeguarding of sensitive information as a significant problem.
Since then, management has established a task force to implement corrective actions, issued an
agency-wide policy, and hired a consultant to assist in a comprehensive review of the matter.


1
    Disgorgements represent ill-gotten gains (or losses avoided) resulting from individuals violating the federal securities
     laws. The Commission seeks disgorgement to ensure that securities law violators do not profit from their illegal
     activity. When appropriate, the disgorged funds are returned to injured investors.
                                                                                       Page       2

The Commission is now implementing the consultant’s most significant recommendations. We
are currently performing a follow-up audit on the controls over sensitive information
Management of information resources was also previously reported as a significant problem.
During this period, we performed a business process review of information technology decision-
making, an assessment of Commission information technology risks, and prepared a response in
accordance with the Government Information Security Reform Act. We intend to maintain our
oversight of the Commission’s management of information resources.
The Commission has taken many positive steps in recent periods to improve information
resources management (e.g., moving to integrate information technology planning, budgeting,
and performance measurement, and link plans and budgets to the Commission's mission and
strategic direction) and is making progress in complying with federal statutes and regulations
regarding IRM. However, pending management actions need to be completed to fully implement
recommendations made in our prior audits. During this period, the Office of Information
Technology reassigned responsibility for implementing the remaining outstanding
recommendations to improve its performance.
Another previously reported significant problem involves lack of adequate controls over the
collection of fees. Since first reported, statutory changes have eliminated many of the fees most
at risk. Moreover, Commission management has made significant progress in correcting the
most serious weaknesses. A new automated filing fee system was implemented this period, which
we plan to review.
No management decisions were revised during the period. The Office of Inspector General
agrees with all significant management decisions regarding audit recommendations.
The Commission, like other government agencies, was significantly affected by the terrorist
attacks on September 11, 2001. In addition to the Commission’s emergency responses to the
disruptions in the securities markets, the offices of the Northeast Regional Office (NERO) at 7
World Trade Center were destroyed. We cancelled an audit that was underway of
administrative controls at the NERO and suspended all audits until October 1, 2001.



                                             Audit Program
The Office issued eight audit reports and two investigative memoranda on management issues
during the reporting period. These documents contained a total of 46 recommendations, which
are further described below. Management generally concurred with the recommendations.




S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                    OCTOBER 31, 2001
                                                                                       Page        3

COMPLIANCE EXAMINATION REFERRALS TO ENFORCEMENT
(AUDIT 322)
The Office of Compliance Inspections and Examinations (OCIE) and the field offices administer
the Examination Program. The staff perform approximately 650 broker dealer and 1,450
investment advisor examinations each year, besides other types of examinations (e.g., Investment
Companies, Transfer Agents, Self-Regulatory Organizations, etc.).
Approximately 20% of broker dealer and 5% of investment advisor examinations result in
Enforcement referrals. Most of these referrals come from cause examinations (i.e., examinations
triggered by an apparent problem).
Our audit objective was to determine whether referrals of alleged deficiencies (in the compliance
with the securities laws) from the Compliance Inspection and Examination Program
(Examination Program) to the Enforcement Program were efficient and effective.
During the audit, we interviewed and surveyed Commission staff, visited three regional offices,
analyzed the broker dealer (BD) and investment adviser (IA) referrals from fiscal year 1998, and
reviewed supporting data in the Commission’s computer systems, among other procedures. We
limited our analysis to BD and IA referrals because they constitute most of the Enforcement
referrals made.
We found that referrals of alleged deficiencies from the Compliance Inspection and Examination
Program (Examination Program) to the Enforcement Program were generally efficient and
effective. Several improvements could enhance the referral process including improving
communication with the Enforcement Program, the interested divisions (i.e., Market Regulation,
Investment Management, and Corporation Finance), and the alleged violator.
During the audit, the Office of Compliance Inspections and Examinations issued guidance that
addressed many of our recommendations.


COMMENT LETTER FOLLOW-UP (AUDIT NO. 326)
The Division of Corporation Finance (Division) reviews disclosure filings as one means to
accomplish its mission. As a result of these filing reviews, the Division issues comment letters
to registrants to identify disclosures to investors needing improvement. In response to these
comments, registrants generally send the Division a letter addressing each comment and an
amended filing marked to identify the changes. The issuance of the comment letter starts a
process of communication between registrants and the Division to resolve the disclosure issues
raised in the comment letters (comment letter follow-up process).
 Our audit objective was to evaluate the effectiveness of the comment letter follow-up process in
enabling the Division to accomplish its mission. We interviewed staff in the Division of
Corporation Finance, the Office of Filings and Information Services (OFIS), and the Office of


S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                    OCTOBER 31, 2001
                                                                                     Page        4

Information Technology (OIT). Also, we reviewed applicable documents and analyzed data
related to comment letters issued in fiscal year 2000.
We concluded that the Division’s follow-up process was generally effective in helping the
Division accomplish its mission. To enhance the process, we recommended that the Division
consistently use the timeframes for registrant responses included in their operating procedures;
request that registrants file amendments and supplemental information together; consult with the
Office of Information Technology on improving the usefulness of EDGAR (the Commission
automated filing system) redlining; broaden distribution of the 10-K follow-up report to include
staff; and ensure that staff upload review documents to EDGAR.


REAL PROPERTY LEASING (AUDIT 330)
The Commission has independent leasing authority to lease space directly, without using the
services of the General Services Administration (GSA). The Associate Executive Director in
OAPM has overall responsibility for the leasing program, and signs all agency leases. The
OAPM Operations Officer, assisted by a leasing specialist, manages day-to-day leasing
activities. In addition, attorneys in the Office of General Counsel (OGC) review all lease
agreements for legal sufficiency. OAPM supplements its expertise by using the services of real
estate brokers.
Our audit objectives were to determine whether the Commission had the capability to process the
major leases that were expiring in the near future and if real property leasing procedures
complied with applicable guidance and were efficient and effective. During the audit, we
reviewed lease documentation, interviewed OAPM, OGC, and regional staff, and surveyed
administrative contacts in the field offices. We did not review any procurement sensitive
documents.
Generally, we found that leasing procedures were efficient and effective, and complied with the
guidance. We made several recommendations to enhance leasing, including updating
Commission guidance; documenting OGC review of leasing documentation; enhancing analysis
of lease billings; and providing additional training to leasing staff.


SECURITY OF PERSONNEL DATA FILES (AUDIT 338)
The Office of Administrative and Personnel Management (OAPM) maintains the Commission’s
official personnel files and related personnel documentation. These files, which are maintained
for every employee, document significant events during an employee’s federal employment (e.g.,
appointment, promotion, transfer, separation). The file is in the custody of the employing
agency (the Commission), but the Office of Personnel Management (OPM) owns it.




S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                   OCTOBER 31, 2001
                                                                                        Page     5

OPM has established security requirements and retention standards for the permanent records in
the file. According to the guidance, agencies should secure personnel records against
unauthorized access by keeping them in locked metal file cabinets or in a secure room.
Our objective was to evaluate the adequacy of controls over official personnel files and
personnel documentation. During the review, we interviewed staff in the Office of
Administrative and Personnel Management, identified and tested management controls, and
reviewed a statistical sample of 45 official personnel files, among other procedures.
We found that the Commission generally complied with OPM guidance regarding file
organization. We identified improvements to the security of files; use of sign-out cards; and the
filing of personnel documents.


STAFF BACKGROUND INVESTIGATIONS (AUDIT 339)
The Office of Administrative and Personnel Management (OAPM) administers the
Commission’s staff background investigation process. OAPM has developed internal policies
and procedures that describe the process, including assigning position risk designations, securing
investigation files, and making suitability determinations.
The Office of Personnel Management (OPM) or one of its contractors is responsible for
performing the background investigation. The position designation and the assigned risk level
determine the investigation’s scope.
Based on a request from the Subcommittee on Oversight and Investigations (Subcommittee) of
the House Committee on Financial Services, we reviewed the Commission’s staff background
investigation process. The Subcommittee asked several specific questions about Commission
policies and procedures for processing staff background investigations. Our audit was designed
to obtain answers to those questions, as well as to identify other needed improvements.
During the audit, we interviewed Commission and OPM staff, reviewed applicable
documentation, and performed tests of the background investigation process, among other
procedures.
We found that the staff background investigation process needed improvement in several
respects, including timely initiation or completion of initial background investigations; timely
reinvestigations of staff in National Security positions; determinations that staff who transferred
from other federal agencies (including the military and US Courts) were previously investigated;
and determination of position risk.


CONTRACTOR BACKGROUND INVESTIGATIONS (AUDIT 340)
Based on a request from the Subcommittee on Oversight and Investigations of the House
Committee on Financial Services, we conducted a survey of the Commission’s contractor
background investigation process. The scope of our survey consisted primarily of interviewing
S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                     OCTOBER 31, 2001
                                                                                      Page        6

Commission and Office of Personnel Management staff, and reviewing supporting
documentation, among other procedures. We did not review contract files.
Our primary objective was to assess the adequacy of the Commission’s written policies and
procedures for initiating, reinvestigating, adjudicating, and documenting background
investigations for contractors.
The Commission occasionally requests background investigations for contractors, partly to
safeguard information under OMB Circular A-130. However, without adequate policies and
procedures, sensitive Commission information may not be adequately safeguarded. We found
that the Commission’s written policies and procedures needed improvement, and suggested
several issues that they should address.


B/D REGISTRATION PROCESS (AUDIT 341)
Broker dealers (B/D) register with the Commission, a self-regulatory organization (SRO), and a
jurisdiction (state) by filing a Form BD through the Central Registration Depository (CRD)
operated by the National Association of Securities Dealers (NASD). The form contains
information on the applicant’s background, controlling persons, principals, and employees.
Our audit objectives were to evaluate the efficiency and effectiveness of the Commission’s
broker dealer registration process, determine compliance with applicable laws and regulations,
and assess communication among the Division of Market Regulation (MR), the Office of Filings
and Information Services (OFIS), the SROs, and the states.
During the audit, we interviewed Commission and non-Commission staff. We also reviewed
documentation and internal controls.
We found that the Commission’s process for registering broker dealers is generally effective and
in compliance with regulations. We also found communication among involved parties to be
effective.
We recommended certain improvements that would help ensure that broker dealer withdrawals
are implemented in 60 days as required by regulation; relevant computer systems are promptly
updated when a broker dealer’s registration with the Commission is revoked due to an
administrative proceeding; administrative proceedings are timely recorded on the intranet; data
recorded in various databases are accurate and consistent; and written policies and procedures
for the broker dealer registration process are established.


SALT LAKE DISTRICT OFFICE (AUDIT NO. 343)
The Salt Lake District Office (SLDO) exercises a range of financial and administrative
functions, including time and attendance; purchasing; staff travel; property management; and
budgeting.

S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                   OCTOBER 31, 2001
                                                                                               Page    7

The Office of Inspector General conducted a limited audit of the financial and administrative
internal controls of the office. The purpose of the audit was to provide the Commission with
negative assurance2 that the internal controls were adequate, being implemented economically
and efficiently, and in compliance with Commission policies and procedures. The audit
procedures were limited to analyzing representations made by staff, reviewing supporting
documentation, and conducting some tests of transactions.
During the limited audit described above, we made one recommendation to improve physical
security at the SLDO. Otherwise, no material weaknesses in the office’s financial and
administrative controls came to our attention. We discussed some minor problems verbally with
management, which is taking corrective action.


INTRANET WEBSITE (INVESTIGATIVE MEMORANDUM ON
MANAGEMENT ISSUES G332)
A recent investigation found that an office’s website on the Commission’s Intranet contained
links to websites that were unrelated to official Commission duties and were not appropriate for
a government website. During our investigation, we learned that no one other than the web site
manager had reviewed the individual links included on the site.
Our investigation revealed a need for improvement in management controls and guidance over
the content of division and office websites. We recommended that the Web Advisory Panel:
require all divisions and offices to review the content on their Intranet websites to ensure that it
is related to official Commission business and otherwise appropriate; prepare guidance on
division and office website content; and develop a charter for its activities.


PUBLIC TRANSPORTATION SUBSIDY PROGRAM (INVESTIGATIVE
MEMORANDUM ON MANAGEMENT ISSUES G-335)
In a recent investigation, we found some apparent confusion concerning how employees in
certain regional and district offices should complete Form SEC 2445, Application for Transit
Benefit. Currently, all Commission employees use this form to apply for transportation subsidy
benefits. Employees are required to certify on the form that they will use the fare benefit for
their regular daily commute to and/or from work and that the monthly benefit the employee
receives will not exceed the employees’ average monthly commuting costs.
However, some regional and district offices participate in transit benefit programs that may
require 100% employee participation and provide a transit benefit annually rather than monthly.
Under these programs, employees receive an annual pass (paid for entirely by the Commission)

2
 Negative assurance means that no material internal control weaknesses came to our attention
during our limited audit.

S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                               OCTOBER 31, 2001
                                                                                       Page     8

that allows them unlimited use of the local public transportation system. Form SEC 2445 does
not appear well suited to these types of annual programs.
We recommended that alternative procedures and forms be developed for applying for transit
benefits in these annual programs. Also, we recommended that the relevant transit benefit
regulations be reviewed to determine whether any modifications are necessary.



                                            Special Projects
During the period, the Office issued three memoranda on special projects, which are summarized
below.


RISK ASSESSMENT OF OFFICE OF INFORMATION TECHNOLOGY
During this reporting period, we completed a risk assessment of the Office of Information
Technology (OIT). The objective of the risk assessment was to identify operational risks in
information technology at the Commission as part of our audit planning. The assessment used a
variety of methodologies, including control self-assessment, and reviewed a range of functions
within and external to OIT.
We provided oral briefings to OIT management on our results. Based on these results, we
initiated a business process review of IT decision-making (see below), as well as an audit of
project management (in process). Other risks identified will be addressed in future audits.


IT DECISION MAKING PROCESS (REPORT NO. 334)
This business process review (BPR) focused on identifying improvements to Information
Technology (IT) capital investment decision-making. Using workshops and discussions with
management, we developed a proposal for an Information Officer Council (IOC).
The IOC would be composed of senior managers from Commission divisions and major offices.
Its duties would include: recommending projects and IT rules to the IT Capital Planning
Committee; directing preparation of IT proposals from their components; and working with the
Office of Information Technology (OIT) in managing ongoing IT projects.
The Commission agreed to implement this proposal. In concert with OIT staff, we helped draft
minimum evaluation criteria applicable to federal IT capital investment decisions. Office
personnel made presentations at training sessions on the new proposal and on laws and
regulations applicable to IT capital investment decision making. We also helped identify a
group decision-making methodology, using OIT personnel and commercial off-the-shelf
software, to assist the IOC in making its decisions.

S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                    OCTOBER 31, 2001
                                                                                      Page        9

We plan to evaluate the operation of the revised process in FY 2002.


INFORMATION SECURITY ACT REVIEW (REPORT NO. 344)
The Government Information Security Reform Act (Security Act) requires Inspectors General to
perform an annual independent evaluation of the information security program and practices of
their agency. In fulfillment of the Security Act’s requirements, we responded to specific
questions from the Office of Management and Budget (OMB) concerning the Commission’s
information security program and practices. Our response was combined with management’s
responses to the OMB questions, and forwarded to OMB in October 2001.
We used the results of four independent evaluations completed during fiscal year 2001 (general
computer controls at headquarters and the Operations Center, general computer controls in the
regions, contractor background investigations, and staff background investigations); evaluations
completed in previous years; on-going audit work; and an independent review of the steps taken
by management to implement the Security Act.
In general, we agreed with management’s assessment that many significant improvements in
information security have been made in the last several years. We also agreed with management
that additional improvements are necessary to achieve a mature security program in full
compliance with all federal requirements.
Necessary additional improvements include, but are not limited to, completion of risk
assessments and security plans for Commission operations and assets; security awareness
training for all Commission staff; implementation of an agency-wide organizational structure to
implement the Security Act; and finalizing technical bulletins and other security guidance.
We have reported ADP security as a significant problem in our Semiannual Reports to Congress
since April 1996 (under the heading information resources management), and have also reported
security concerns over sensitive information as a significant problem since October 1999.



                                     Investigative Program
Nine investigations were closed during the period. Eight subjects were referred to the
Commission; four cases were referred to the Department of Justice. During the period, two
subjects resigned and one received a reprimand. In addition, three subjects (two referred in a
prior period) were counseled. Five subjects, referred to Commission management during this
and prior periods, are awaiting disposition.
The most significant cases closed during the period are described below.




S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                   OCTOBER 31, 2001
                                                                                       Page 10

FALSIFICATION OF TIME AND ATTENDANCE AND FORGERY
The Office’s investigation disclosed that two employees had falsified their time and attendance
over a substantial period of time. The employees falsely reported earning credit hours for time
they had not actually worked and then used those credit hours to take time off work. We also
found evidence that one of the employees had forged a supervisor’s signature on credit hour
forms and leave slips. Both employees resigned after their removal was proposed.


TRAVEL ABUSE
We investigated an allegation that a Commission manager had engaged in abusive travel
practices by taking unnecessary trips at government expense for the manager’s personal
convenience. It was also alleged that the manager pressured staff to change meeting dates and
demanded that industry personnel meet at particular times in order to accommodate the staff
member’s personal schedule.
The evidence developed in the investigation failed to substantiate the allegations.

ACCEPTANCE OF GIFT
The Office found evidence that a Commission staff member had violated the ethical standards
applicable to government employees by accepting a gift (i.e., a favor) from a prohibited source.
We also found that the employee’s conduct created an appearance of impropriety and was
inconsistent with agency policies concerning staff conduct. The employee received a written
reprimand.



                                      Significant Problems
No new significant problems were identified, based on the work completed during the period.




S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                     OCTOBER 31, 2001
                                                                                                              Page 11


                Significant Problems Identified Previously

DISGORGEMENTS
In a prior reporting period, we completed an audit of disgorgements 3. We found that
improvements could be made to the disgorgement waiver process to achieve greater assurance
that waivers were justified.
The Division of Enforcement concurred and has taken actions to improve the waiver process. It
issued written procedures (currently being updated) relating to waivers, hired a contractor to
identify further improvements, and is using an external database to verify information submitted
in waiver requests, as well as to identify omitted information.
While the Division intends to continue to improve the waiver process, it does not believe the
process is currently a significant problem. We intend to conduct a follow-up review at a later
date.


SENSITIVE INFORMATION
In a previous period, we reported the safeguarding of sensitive information as a significant
problem. Since then, management established a task force to implement corrective actions,
issued agency-wide policy, and hired a security consultant to assist in a more comprehensive
review of overall security. The Commission is now implementing the consultant’s most
significant recommendations.
We recently began a follow-up audit on certain controls over sensitive information. The audit
will assess the adequacy of the Commission’s new procedures, and the extent of compliance with
them.
During this reporting period, we also completed audits on staff and contractor background
investigations (see Audit Program above), which act as a control over sensitive information. The
audits found that certain improvements were necessary in the background investigation process.




3
    Disgorgements represent ill-gotten gains (or losses avoided) resulting from individuals violating the federal securities
     laws. The Commission seeks disgorgement to ensure that securities law violators do not profit from their illegal
     activity. When appropriate, the disgorged funds are returned to injured investors.

S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                                        OCTOBER 31, 2001
                                                                                         Page 12

INFORMATION RESOURCES MANAGEMENT
We previously identified information resources management as a significant problem based on
prior audits, investigative work, and management studies that identified significant weaknesses
in many aspects of the Commission’s management of information resources.
Since then, the Commission has taken many positive steps to improve the management of
information resources throughout the Commission. Over the past six months, the Office of
Information Technology (OIT) finalized many policies and procedures to implement its Project
Management Methodology; initiated contracting actions to obtain contractor support to assess
and improve its project management support capability; and took actions to implement
repeatable information resources management processes.
Although the Commission has made significant progress in complying with the requirements of
information technology (IT) statutes and regulations, many audit recommendations remain
pending. To improve its performance in closing open audit recommendations, OIT reassigned
responsibility for ensuring closures and established a new system for tracking the status of IT
related audits and resultant recommendations
During this period, we completed a risk assessment of the Office of Information Technology, a
business process review of IT decision-making, and a response to the Office of Management and
Budget under the Government Information Security Reform Act (see above). Reviews of the
security over the Commission’s public web site and of IT project management are ongoing. In
future periods, we intend to maintain our oversight of the Commission’s management of
information resources.


COLLECTION OF FILING FEES
Starting in 1996, we have identified the Commission’s collection of filing fees as a significant
problem. Since then, statutory changes have eliminated many of the fees most at risk.
Moreover, Commission management has made significant progress in correcting the most
serious weaknesses.
The strengthening of automated controls, related to filing fee collection, has been awaiting
modernization of the EDGAR system (which receives and disseminates filings from public
companies). According to Commission officials, EDGAR Releases 7.5 and 8.0 have been
issued, implementing a new filing fee collection system. The new system is designed to contain
adequate financial controls.
Commission officials believe that the collection of filing fees is no longer a significant problem.
We are planning a review of the new system’s controls over the collection of filing fees.




S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                     OCTOBER 31, 2001
                                                                                                          Page 13


                                     Access to Information
The Office of Inspector General has received access to all information required to carry out its
activities. No reports to the Chairman, concerning refusal of such information, were made
during the period.



                                              Other Matters

SUSPENSION OF AUDITS RE: EVENTS OF SEPTEMBER 11TH
The tragedy in New York City had two immediate and direct impacts on the Commission. First,
although none of its 334 staff were seriously injured (physically), the Commission lost its largest
regional office in the collapse of the 7 World Trade Building. In addition, the Commission had
to facilitate the reopening of the nation’s securities markets.
The response involved a wide range of Commission organizations. The Commission’s reaction
entailed procuring new office space4, furniture, equipment and communications; recovering lost
evidence and information from back up systems and original sources; testing market systems and
communications; and issuing emergency rules and interpretive releases.
To avoid unintentionally interfering with these emergency recovery efforts, the Inspector
General suspended the audit program. The audit program resumed October 1st with special
sensitivity to continuing recovery efforts.


EXECUTIVE COUNCIL ON INTEGRITY AND EFFICIENCY
The Office actively participates in the activities of the Executive Council on Integrity and
Efficiency (ECIE). The Inspector General attends ECIE meetings, is an active member of its
Financial Institutions Regulatory Committee, and serves as the ECIE member on the Integrity
Committee established by Executive Order No. 12993.
The Counsel to the Inspector General is an active member of the PCIE Council of Counsels. The
Council considers legal issues relevant to the Inspector General community.




4
    On October 15th, the Commission officially reopened its Northeast Regional Office in the historic Woolworth Building
    (233 Broadway) in the lower Manhattan financial district.
S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                                     OCTOBER 31, 2001
                                                                                   Page 14




                                          Questioned Costs
                                                                             DOLLAR VALUE
                                                                            (IN THOUSANDS)

                                                                    UNSUPPORTED      QUESTIONED
                                                           NUMBER     COSTS            COSTS
A          For which no management decision has
           been made by the commencement of the
           reporting period                                     0           0                0

B          Which were issued during the reporting
           period
                                                            0           0                0

           Subtotals (A+B)                                      0           0                0

C          For which a management decision was                  0           0                0
           made during the reporting period

    (i)    Dollar value of disallowed costs                     0           0                0

    (ii)   Dollar value of costs not disallowed                 0       0                    0

D          For which no management decision has                 0       0                    0
           been made by the end of the period

           Reports for which no management                      0       0                    0
           decision was made within six months of
           issuance




S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                OCTOBER 31, 2001
                                                                                   Page 15




    Recommendations That Funds Be Put To Better Use
                                                                       DOLLAR VALUE
                                                            NUMBER    (IN THOUSANDS)
A               For which no management decision has
                been made by the commencement of the
                                                                  0            0
                reporting period
B               Which were issued during the reporting
                period
                                                              0            0

                Subtotals (A+B)                                   0            0
C               For which a management decision was               0            0
                made during the period
      (i)       Dollar value of recommendations that were         0            0
                agreed to by management
            -   Based on proposed management action               0            0
            -   Based on proposed legislative action              0            0
      (ii)      Dollar value of recommendations that were         0            0
                not agreed to by management
D               For which no management decision has
                been made by the end of the reporting
                                                                  0            0
                period
                Reports for which no management decision
                was made within six months of issuance
                                                                  0            0




S E C U R I T I E S & E X C H AN G E C O M M I S S I O N               OCTOBER 31, 2001
                                                                                      Page 16




                Reports with No Management Decisions
         Management decisions have been made on all audit reports issued before the beginning
         of this reporting period (April 1, 2001).



                          Revised Management Decisions
         No management decisions were revised during the period.



    Agreement with Significant Management Decisions
         The Office of Inspector General agrees with all significant management decisions
         regarding audit recommendations.




S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                   OCTOBER 31, 2001
                                        FY 2001 OIG PERFORMANCE MEASURES

                                                                        AUDITING

Strategic Goal: Identify and mitigate impediments to achieving Commission objectives (i.e., operational risks)


  OBJECTIVES/STRATEGIES                                      OUTPUT MEASURES                                        OUTCOME MEASURES


1. Assess operational impediments to          Develop an enhanced qualitative evaluation capacity           The Commission achieves its strategic program
   achieving Commission objectives                                                                          and support objectives
                                                During FY 2001, the Office conducted a risk assessment
  A. Identify significant operational risks     of the Commission’s Office of Information Technology        Commission management has an enhanced
                                                (OIT) in order to identify significant operational risks.   understanding of operational risks
                                                The risk assessment incorporated a variety of
                                                methodologies (including control self-assessment) that      Commission management is better able to
                                                were designed to enhance the Office’s qualitative           manage, share, control, transfer, avoid, or accept
                                                evaluation capacity.                                        operational risks

                                                Based upon an assessment of the costs/benefits of the         In connection with the OIT risk assessment,
                                                qualitative operational risk assessment approach, the         the Office provided two briefings to OIT
                                                Office has decided to assign risk assessment                  management concerning the results of the
                                                responsibility for program areas to the auditors              risk assessment. The workshops and
                                                assigned to those areas. The auditors will be                 briefings were well received by OIT
                                                responsible for determining the methodology to be             management. Based upon the results of the
                                                employed to assess risks in particular program areas.         risk assessment, the Office initiated a
                                                                                                              Business Process Review of IT Capital
                                              Number of risk assessment workshops and surveys                 Decision Making and an audit of project
                                                                                                              management. An audit of IT contract
                                                The Office conducted 7 risk assessment workshops              administration is also being planned.
                                                during FY 2001. Two additional workshops were
                                                conducted as part of a Business Process Review of IT          During the Business Process Review of IT
                                                Capital Decision Making, in order to identify issues and      Capital Decision Making, the Office
                                                recommendations for improvements.                             worked closely with OIT management to

1. Assess operational impediments to          Number of Commission staff participating in risk assessment     create an Information Officer Council

                                                                                                                                                       Page 1
                                        FY 2001 OIG PERFORMANCE MEASURES

                                                                        AUDITING


  OBJECTIVES/STRATEGIES                                       OUTPUT MEASURES                                       OUTCOME MEASURES

  achieving Commission objectives             workshops and surveys                                            (IOC), consisting of senior managers from
  (CONTINUED)                                                                                                  various Commission divisions and offices.
                                                 Approximately 50 Commission managers and staff                The IOC will be responsible for evaluating
  A. Identify significant operational risks      participated in risk assessment workshops during FY 2001.     and recommending projects and IT rules to
     (CONTINUED)                                 Approximately 20 additional Commission staff participated     the IT Capital Planning Committee. It will
                                                 in the workshops conducted as part of the Business Process    also direct the preparation of IT proposals
                                                 Review of IT Capital Decision Making.                         and work with OIT project managers and
                                                                                                               contractors in managing IT projects.
                                              Number of significant operational risks identified               Office staff provided presentations on the
                                                                                                               IOC concept, applicable IT laws and
                                                 The risk assessment conducted within OIT identified 5         regulations, and minimum evaluation
                                                 major risk areas: developing and mentoring staff;             criteria for IT capital investment decisions.
                                                 establishing better communication methods;                    The Office plans to evaluate the operation
                                                 management and leadership skills; finalizing,                 of the IOC in 2002 using the GAO
                                                 communicating and linking strategic direction to daily        Framework for Assessing and Improving
                                                 activities; and streamlining, formalizing and enforcing       Process Maturity.
                                                 policies, practices and procedures. Within these five
                                                 major risk areas, the Office identified 22 operational        In addition, in response to the IT risk
                                                 impediments to achieving management’s objectives.             assessment, OIT management requested
                                                                                                               that the Office perform several evaluations
                                                                                                               of OIT operations. These reviews are
                                                                                                               expected to address topics such as the
                                                                                                               interaction between short-term tactical
                                                                                                               plans and strategic goals, the adequacy of
                                                                                                               operating procedures for sub-offices within


1. Assess operational impediments to          The 2001-2002 annual audit plan is based primarily on risks to   OIT, and the linkage between performance
   achieving Commission objectives            the achievement of Commission objectives                         plans for staff and OIT goals.
   (CONTINUED)

                                                                                                                                                        Page 2
                                          FY 2001 OIG PERFORMANCE MEASURES

                                                                        AUDITING


  OBJECTIVES/STRATEGIES                                       OUTPUT MEASURES                                    OUTCOME MEASURES

                                                The 2001-2002 annual audit plan includes audits that
   B. Incorporate “operational risk” as         were identified by risk assessment methodologies, prior
      the primary audit planning                audits, and Commission management and staff; audits
      criterion                                 resulting from new legislation and Congressional
                                                requests; and audits of areas that the Office had not
                                                previously reviewed.

                                              Percentage of performance audits in high-risk programs or
                                              support functions – planned

                                                100% of all performance audits were planned in high-
                                                risk programs or support functions.

                                              Percentage of audits, suggested by the Commission or senior
                                              management, scheduled in annual audit plans

                                                100% of audits suggested by Commission management
                                                have been scheduled in annual audit plans.




2. Mitigate operational risks and add value   Number of audit reports (including audit memoranda and        The Office also continued to monitor the
   to Commission operations                   reports on management issues arising from investigations)     status of significant problems identified in
                                                                                                            the Office’s Semiannual Reports to
   A. Conduct performance audits of             The Office issued 18 audit reports, 1 audit memorandum      Congress, including automated data
      operational risks in Commission           and 3 reports on management issues arising from             processing (ADP) security and security over

                                                                                                                                                   Page 3
                                        FY 2001 OIG PERFORMANCE MEASURES

                                                                         AUDITING


  OBJECTIVES/STRATEGIES                                       OUTPUT MEASURES                                       OUTCOME MEASURES

       programs and support functions           investigations during FY 2001. Jointly, these reports          sensitive information. With respect to ADP
                                                contained 119 recommendations for improvement in               security, the Office responded to Office of
                                                Commission operations.                                         Management and Budget (OMB) questions
                                                                                                               pursuant to the Government Information
                                              Percentage of performance audits directly related to high-risk   Security Reform Act (GISRA). In its
                                              programs or support functions -- conducted                       response to OMB, the Office reported that
                                                                                                               management has made significant
                                                100% of performance audits conducted were directly             improvements in information security over
                                                related to high-risk programs or support functions.            the last few years. However, the Office
                                                                                                               pointed out that additional improvements
                                              Number of significant audit findings and recommendations         were necessary to achieve a mature security
                                                                                                               program in full compliance with all federal
                                                The Office made a total of 97 significant audit findings       requirements. With respect to sensitive
                                                and recommendations during FY 2001.                            information, the Office is conducting a
                                                                                                               follow-up audit of certain controls over
                                              Percentage of significant findings and recommendations           sensitive information.
                                              communicated to management before obtaining formal
                                              comments on draft audit reports

                                                 100% of significant findings and recommendations were
                                                 communicated to management before obtaining formal
                                                 comments on draft audit reports.

2. Mitigate operational risks and add value   Percentage of audit recommendations Commission
   to Commission operations                   management accepts
   (CONTINUED)
                                                 Commission management accepted 100% of the Office’s
   A. Conduct performance audits of              FY 2001 audit recommendations on which a decision has
      operational risks in Commission            been made.
      programs and support functions

                                                                                                                                                     Page 4
                                        FY 2001 OIG PERFORMANCE MEASURES

                                                                         AUDITING


  OBJECTIVES/STRATEGIES                                        OUTPUT MEASURES                             OUTCOME MEASURES

       (CONTINUED)                            Percentage of audit recommendations the Commission
                                              implements

                                                 Commission management implemented 15% of the
                                                 Office’s FY 2001 audit recommendations, as of October
                                                 23, 2001. Management is working on implementing the
                                                 remaining recommendations.

   B. Encourage independent management        Number of material risks reported to management
      actions to mitigate operational risks
      identified                                 The Office reported to management on the 5 major risk
                                                 areas that were identified through the OIT risk
                                                 assessment: developing and mentoring staff;
                                                 establishing better communication methods;
                                                 management and leadership skills; finalizing,
                                                 communicating and linking strategic direction to daily
                                                 activities; and streamlining, formalizing and enforcing
                                                 policies, practices and procedures. The Office also
                                                 informed management of the 22 operational
                                                 impediments contained within these 5 major risk areas.

2. Mitigate operational risks and add value   Percentage of material operational risks identified by the
   to Commission operations                   Office that are subsequently mitigated by management
   (CONTINUED)                                without further Office action

   B. Encourage independent management           Management has requested additional operational
      actions to mitigate operational risks      evaluations by the Office to assist in mitigating the 5
      identified (CONTINUED)                     significant IT risks identified.




                                                                                                                              Page 5
                                        FY 2001 OIG PERFORMANCE MEASURES

                                                                INVESTIGATIONS


Strategic Goal: Identify and mitigate impediments to high individual and agency integrity (i.e., integrity risks)


  OBJECTIVES/STRATEGIES                                    OUTPUT MEASURES                                       OUTCOME MEASURES


1. Assess integrity risks and prevent and   Develop a qualitative evaluation capacity                    Commission staff readily refer allegations of
   deter misconduct                                                                                      misconduct to the Office
                                              During FY 2000 and FY 2001, the Office conducted an
   A. Conduct integrity workshops             audit of the Commission’s integrity program, as a            Approximately 45% of the allegations the
                                              follow-up to two audits performed in 1996-97. The            Office received during FY 2001 were from
                                              follow-up audit was conducted using control self-            Commission employees or managers. The
                                              assessment methodology. Under this methodology,              integrity audit performed during FY 2000
                                              workshops were convened to discuss and rate identified       and FY 2001 found that Commission
                                              management objectives. Electronic voting technology          employees placed a high premium on
                                              was employed in several of the workshops.                    integrity. In addition, with almost no
                                                                                                           exceptions, staff participating in the
                                            Number of material integrity risks identified through          integrity workshops indicated that they felt a
                                            integrity workshops and surveys                                personal sense of responsibility for
                                                                                                           maintaining the integrity of the Commission.
                                              The integrity audit conducted during FY 2000 and
                                              FY 2001 identified no material integrity risks, a result
                                              that reflected the high level of integrity among
                                              Commission staff. The Office made some
                                              recommendations for improvements to management in
                                              the areas of available general ethics guidance and
                                              resources and written guidance on the limitations to
                                              confidentiality of ethics counseling.




                                                                                                                                                     Page 6
                                        FY 2001 OIG PERFORMANCE MEASURES

                                                                INVESTIGATIONS


  OBJECTIVES/STRATEGIES                                    OUTPUT MEASURES                                OUTCOME MEASURES

1. Assess integrity risks and prevent and   Number of investigative reports on management issues
   deter misconduct (CONTINUED)
                                              The Office issued 3 investigative reports on management
   B. Issue reports to management on          issues during FY 2001, which contained 8
      control deficiencies identified         recommendations to prevent or deter staff misconduct.
      during investigations
                                            Number of significant recommendations made to prevent or
                                            deter misconduct

                                              The Office made 6 significant recommendations to
                                              prevent or deter staff misconduct in investigative
                                              reports on management issues during FY 2001. These
                                              recommendations pertained to use of personal
                                              resources, Intranet website content and the public
                                              transportation subsidy program.

                                            Number of management actions taken in response to OIG
                                            recommendations made to prevent or deter misconduct

                                              Management has implemented 2 of the 8
                                              recommendations made to prevent or deter staff
                                              misconduct and is working to implement the remaining 6
                                              recommendations.




1. Assess integrity risks and prevent and   Number of consultations with Office of Ethics Counsel staff
   deter misconduct (CONTINUED)

                                                                                                                             Page 7
                                       FY 2001 OIG PERFORMANCE MEASURES

                                                             INVESTIGATIONS


  OBJECTIVES/STRATEGIES                                 OUTPUT MEASURES                                OUTCOME MEASURES

                                           The Office consulted with the Office of Ethics Counsel
  C. Maintain effective communications     concerning the Office’s investigations, as appropriate.
     with the Office of Ethics Counsel     Further, the Ethics Counsel received copies of all final
                                           investigative reports issued during FY 2001.


2. Solicit allegations of misconduct     Percentage of new employees receiving Office material
                                         soliciting allegations of misconduct

                                           100% of new Commission employees received Office
                                           material soliciting allegations of misconduct during
                                           FY 2001.

                                         Percentage of departing employees receiving Office material
                                         soliciting allegations of misconduct

                                           100% of departing Commission employees received
                                           Office material soliciting allegations of misconduct
                                           during FY 2001.

                                         Number of allegations of misconduct received

                                           The Office received 101 allegations of misconduct during
                                           FY 2001 (excluding misdirected phone calls, e-mails or
                                           letters that were transferred to other agency

2. Solicit allegations of misconduct       components). These allegations came from a variety of
   (CONTINUED)                             sources, including Commission management and staff,
                                           members of the public, and anonymous sources.



                                                                                                                          Page 8
                                          FY 2001 OIG PERFORMANCE MEASURES

                                                                 INVESTIGATIONS


  OBJECTIVES/STRATEGIES                                     OUTPUT MEASURES                                         OUTCOME MEASURES


3. Assign allegations of misconduct timely   Number of allegations assigned (i.e., investigation,
                                             preliminary inquiry, monitoring, or transmittal to
                                             appropriate other organization without Office investigation)

                                               The allegations received were assigned as follows: 19
                                               investigations were opened; 43 preliminary inquiries
                                               were opened; 14 referrals were made to management
                                               or other Commission components; 7 referrals were
                                               made to the Office’s auditors for inquiry or audit
                                               planning; and 4 referrals were made outside the
                                               Commission. With regard to the remaining allegations,
                                               no action was considered necessary, the allegation was
                                               responded to or resolved without assignment, or
                                               additional information was requested from the
                                               complaint.

                                             Percentage of allegations assigned within 3 workdays of
                                             receipt

                                               94% (95 of 101) of allegations received during FY 2001
                                               were assigned or otherwise resolved within 3 workdays
                                               of receipt.

4. Investigate allegations objectively,      Number of preliminary inquiries conducted                      Commission staff have an enhanced
   competently, and timely, and refer                                                                       understanding of desired and prohibited conduct
   violations appropriately                    The Office completed 41 preliminary inquiries during
                                               FY 2001. One investigation was opened as the result of       Commission program operations are enhanced by
                                               a preliminary inquiry. Six preliminary inquiries led to      the public’s trust in Commission staff
                                               referrals of matters to other agencies. Two preliminary

                                                                                                                                                      Page 9
                                    FY 2001 OIG PERFORMANCE MEASURES

                                                               INVESTIGATIONS


  OBJECTIVES/STRATEGIES                                   OUTPUT MEASURES                                         OUTCOME MEASURES

                                            inquiries remained pending at the end of FY 2001.             The Commission’s integrity objective (i.e., to
                                                                                                          promote high individual and agency integrity) is
                                          Percentage of preliminary inquiries completed within one        achieved
                                          month
                                                                                                           The Commission continues to have a high
                                            Of the preliminary inquiries completed during FY 2001,         degree of individual and agency integrity.
                                            90% (37 of 41) were completed within one month.                The Office’s integrity audit completed in FY
                                                                                                           2001 found that the Commission was
                                          Number of investigations conducted                               achieving its primary objective of promoting
                                                                                                           high individual and agency integrity. The
                                            Five investigations were pending at the beginning of           audit identified no material weaknesses and
                                            FY 2001. The Office closed 21 investigations during            found that Commission employees placed a
                                            FY 2001. Three investigations remained pending at the          high premium on integrity.
                                            end of FY 2001.

                                          Percentage of investigations in which the rights of subjects,
                                          complainants, and witnesses were adequately protected

                                            The rights of subjects, complainants and witnesses were
                                            adequately protected in 100% of the investigations


4. Investigate allegations objectively,     conducted during FY 2001. Subjects were generally
   competently, and timely, and refer       provided with written notice of their rights before being
   violations appropriately (CONTINUED)     asked to provide evidence. In addition, where
                                            complainants requested confidentiality, every effort was
                                            made to comply with these requests.

                                          Percentage of investigations completed within 6 months



                                                                                                                                                    Page 10
                                     FY 2001 OIG PERFORMANCE MEASURES

                                                               INVESTIGATIONS


  OBJECTIVES/STRATEGIES                                   OUTPUT MEASURES                               OUTCOME MEASURES

                                             95% (20 of 21) of investigations were completed within
                                             6 months.

                                           Number of allegations investigated

                                             The Office investigated a total of 32 allegations during
                                             FY 2001. In addition, 41 other allegations were
                                             reviewed during preliminary inquiries completed
                                             during FY 2001.

                                           Number of subjects investigated

                                             The Office investigated a total of 27 subjects during FY
                                             2001. In addition, 47 other subjects were involved in
                                             preliminary inquiries completed during FY 2001.




4. Investigate allegations objectively, Number of investigations in which the evidence failed to
   competently, and timely, and refer   substantiate the allegations
   violations appropriately (CONTINUED)
                                          The evidence failed to substantiate the allegations in 11
                                          investigations closed during FY 2001. One investigation
                                          was closed because the Office decided not to pursue the
                                          matter further due to ongoing investigations by other
                                          Commission components. In addition, 35 preliminary
                                          inquiries were closed because the allegation appeared to
                                          lack merit, there was insufficient evidence to pursue the

                                                                                                                           Page 11
                                    FY 2001 OIG PERFORMANCE MEASURES

                                                              INVESTIGATIONS


  OBJECTIVES/STRATEGIES                                  OUTPUT MEASURES                                  OUTCOME MEASURES

                                            matter further, or the matter was referred to
                                            management or other agency components.

                                          Number of referrals to the Commission

                                            The Office referred 8 cases to the Commission during
                                            FY 2001. These cases included evidence of misuse of
                                            computer resources, false statements, falsification of
                                            time and attendance, forgery, assault, abusive conduct,
                                            making and acceptance of gifts, appearance of
                                            impropriety and use of Commission time for outside
                                            businesses.




4. Investigate allegations objectively,   Number of referrals to the Department of Justice
   competently, and timely, and refer
   violations appropriately (CONTINUED)     The Office referred 5 cases to the Department of Justice
                                            during FY 2001. These cases involved evidence of
                                            misuse of computer resources, false statements,
                                            falsification of time and attendance, forgery and
                                            violation of conflict of interest statutes. Prosecution was
                                            declined in 4 matters; one matter is still pending.

                                          Number of personnel actions or convictions resulting from
                                          investigations



                                                                                                                             Page 12
                    FY 2001 OIG PERFORMANCE MEASURES

                                         INVESTIGATIONS


OBJECTIVES/STRATEGIES               OUTPUT MEASURES                              OUTCOME MEASURES

                        One employee was reprimanded, three employees were
                        counseled, and two employees resigned as a result of
                        Office investigations. In addition, two employees
                        resigned in connection with matters referred during FY
                        2000. Five matters remained pending at the end of FY
                        2001.




                                                                                                    Page 13
                                  FY 2001 OIG PERFORMANCE MEASURES
                                                               REPORTING


Strategic Goal: Keep the Chairman and Congress fully and currently informed of Office activities and significant issues


  OBJECTIVES/STRATEGIES                                OUTPUT MEASURES                                      OUTCOME MEASURES


1. Report to Congress                  Semiannual reports (SARs) comply with all reporting          The Congress is fully and currently informed of
                                       requirements of the Inspector General Act                    office activities and material issues

                                         Both SARs for FY 2001 complied with all reporting            The Office strives to keep the Congress fully
                                         requirements of the Inspector General Act.                   and currently informed of Office activities
                                                                                                      and material issues through its SARs and
                                       Percentage of audit reports summarized in the SARs             other efforts. During FY 2001, the Office
                                                                                                      performed three audits in response to a
                                         100% of the audit reports, audit memoranda and reports       request from a Congressional subcommittee
                                         on management issues arising from investigations issued      that the Office conduct an evaluation of
                                         during the reporting period were summarized in the           background investigations of Commission
                                         SARs for FY 2001.                                            employees and contractors. The Inspector
                                                                                                      General provided the subcommittee with the
                                       Percentage of significant investigations summarized in the     three audit reports. In addition, the
                                       SARs                                                           Inspector General responded to specific
                                                                                                      questions asked by the subcommittee
                                         100% of significant investigations were summarized in        concerning the Commission’s policies and
                                         the SARs for FY 2001.                                        procedures for background investigations of
                                                                                                      current and prospective employees and the
                                       Office performance is reported annually in every other SAR     implementation of those procedures.

                                         Office performance for FY 2001 is being reported in the
                                         SAR for the second half of FY 2001.




                                                                                                                                             Page 14
                                    FY 2001 OIG PERFORMANCE MEASURES
                                                              REPORTING


  OBJECTIVES/STRATEGIES                              OUTPUT MEASURES                                       OUTCOME MEASURES

1. Report to Congress (CONTINUED)     Number of testimonies, meetings, or other communications
                                      with the Congress or its staff

                                        The Inspector General and Office staff had several
                                        meetings and telephone calls with Congressional staff
                                        concerning a variety of issues. The Office also provided
                                        written reports to Congressional committees and
                                        subcommittees on employee and staff background
                                        investigations, collection of personally identifiable
                                        information on Internet sites, and payments for water and
                                        sanitary sewer services provided by the District of
                                        Columbia.



2. Report to the Chairman and         Number of meetings with, and reports to, the Chairman or      The Chairman and senior Commission
   Commission management              senior Commission management on the Office’s activities       management are fully and currently informed of
                                      and significant issues                                        office activities and material issues

                                        The Inspector General provided written monthly reports        Through the monthly reports to the Chairman,
                                        to the Chairman on Office activities and had frequent         the quarterly Inspector General Advisory
                                        contacts with the Chairman’s staff. In addition, the          Committee meetings and other periodic
                                        Inspector General and Office staff routinely met with         briefings, the Chairman and senior
                                        senior Commission management on the Office’s activities       management are adequately informed on a
                                        and significant issues. In September 2001, the Executive      timely basis of Office activities and significant
                                        Director made a presentation to the Office’s staff            issues arising from those activities.
                                        concerning recent developments and areas of concern.


2. Report to the Chairman and         Number of Inspector General Advisory Committee meetings
   Commission management              conducted

                                                                                                                                              Page 15
                    FY 2001 OIG PERFORMANCE MEASURES
                                              REPORTING


OBJECTIVES/STRATEGIES                OUTPUT MEASURES                                 OUTCOME MEASURES

(CONTINUED)
                        In FY 2001, the Inspector General met quarterly with the
                        Inspector General Advisory Committee. Members of the
                        Inspector General Advisory Committee include the Chief
                        of Staff, the Executive Director, the General Counsel, and
                        the Director of the Division of Enforcement. At these
                        meeting, the Inspector General brought significant issues
                        and developments to the Advisory Committee’s attention.
                        Advisory Committee members also voiced their concerns
                        and priorities during these meetings.




                                                                                                        Page 16
                                        FY 2001 OIG PERFORMANCE MEASURES
                                                               WORK QUALITY


Strategic Goal: Continuously improve Office staff, work products, and administration


  OBJECTIVES/STRATEGIES                                   OUTPUT MEASURES                                      OUTCOME MEASURES


1. Arrange for triennial peer reviews     Arrange for a peer review of the audit program               The Congress, Commission, and public have
                                                                                                       confidence in the competence and
                                            The Office has arranged for the Federal Reserve Board of   professionalism of our staff
                                            Governors OIG to conduct a peer review of the Office’s
                                            audit program in 2003.                                       The Office has received favorable comments
                                                                                                         on the competence and professionalism of
                                          Number of peer reviews of other OIGs conducted by Office       its staff from several sources within the
                                          staff                                                          Commission.

                                            The Office is scheduled to conduct a peer review of the
                                            National Archives and Records Administration OIG
                                            beginning in October 2001.


2. Obtain input from clients and          Percentage of audit clients surveyed                         Office staff, operations, and administration are
   Commission management on the value                                                                  more efficient and effective
   of Office activities                     Beginning in September 2001, the Office implemented
                                            a new procedure for soliciting comments from audit           The Office constantly strives to improve its
                                            customers on each audit report issued by the Office.         efficiency and effectiveness. The auditors
                                                                                                         have recently been assigned responsibility for
                                                                                                         identifying and assessing operational risks in
                                                                                                         their program areas. It is anticipated that
                                                                                                         these risk assessment efforts will result in an




                                                                                                                                                 Page 17
                                        FY 2001 OIG PERFORMANCE MEASURES
                                                                WORK QUALITY


  OBJECTIVES/STRATEGIES                                   OUTPUT MEASURES                                        OUTCOME MEASURES

2. Obtain input from clients and          Percentage of investigative clients surveyed                       increased audit focus on areas of significant
   Commission management on the value                                                                       operational risk.
   of Office activities (CONTINUED)          The Office requested client feedback on all investigative
                                             reports issued during FY 2001.

                                          Customer feedback is used to improve Office products and
                                          services

                                             The Office reviews and evaluates all comments received
                                             in an effort to enhance the Office’s audit and investigative
                                             programs.



3. Maintain and improve the technical     Percentage of audit staff who meet or exceed the Government       The Office is committed to education and
   proficiency of Office staff            Auditing Standard’s training requirements                         training of its staff to ensure that staff
                                                                                                            maintain their skills, are aware of new
                                             100% of the audit staff members met or exceeded the            developments and are able to adapt to
                                             Government Auditing Standard’s training requirements.          changes in the environment in which the
                                                                                                            Commission operates. Staff members
                                          Percentage of legal staff who maintain Bar memberships and        generally exceed the minimum CPE
                                          obtain training to keep current professionally                    requirements. As a result of the Office’s
                                                                                                            commitment to education and training,
                                             The Office currently has one attorney, who maintains Bar       Office staff are perceived as competent
                                             memberships and attends periodic professional training in      professionals who are qualified to achieve
                                             subjects pertinent to the Office.                              the Office’s mission.

                                             .

3. Maintain and improve the technical     Percentage of audit staff who have professional certification


                                                                                                                                                   Page 18
                              FY 2001 OIG PERFORMANCE MEASURES
                                                     WORK QUALITY


OBJECTIVES/STRATEGIES                           OUTPUT MEASURES                               OUTCOME MEASURES

proficiency of Office staff
(CONTINUED)                       The Inspector General, the Deputy Inspector General
                                  and 4 of the 5 auditors have professional certifications.

                                Number of professional certifications maintained

                                  The Office’s 8 staff members have a total of 14
                                  professional certifications and 6 advanced degrees.




                                                                                                                 Page 19
                                       FY 2001 OIG PERFORMANCE MEASURES

                                                    GOVERNMENT-WIDE ISSUES


Strategic Goal: Participate with the IG Community in addressing government-wide issues


  OBJECTIVES/STRATEGIES                                 OUTPUT MEASURES                                       OUTCOME MEASURES


1. Actively participate in ECIE/PCIE     Participation in bi-monthly ECIE meetings                    The Office benefits from the resolution of
   activities                                                                                         government-wide issues and the transfer of audit
                                           The Office participated in 100% of all ECIE meetings       and investigative techniques and knowledge
                                           during FY 2001.
                                                                                                        Through its participation in PCIE/ECIE and
                                         Participation in PCIE Council of Counsel’s (CCIG) meetings     CCIG activities, the Office has obtained
                                                                                                        valuable information concerning
                                           The Office participated in approximately 70% of the          Congressional interests, new government
                                           CCIG meetings during FY 2001.                                policies, and the impact of new laws and court
                                                                                                        decisions.
                                         Participation in joint PCIE/ECIE meetings
                                                                                                      The Office timely incorporates Congressional
                                           The Office participated in all joint ECIE/PCIE meetings,   and administration policies and concerns into its
                                           including the annual Inspector General retreat.            operations

                                         Participation in other ECIE or PCIE Committees                 The Office performed three audits in
                                                                                                        response to a Congressional subcommittee’s
                                           The Inspector General is a member of the Integrity           request that the Office conduct an
                                           Committee of the PCIE and ECIE. Pursuant to executive        evaluation of background investigations of
                                           order, the Integrity Committee is tasked with reviewing      Commission employees and contractors.
                                           and investigating administrative allegations against         These audits addressed Staff Background
                                           Inspectors General and other senior staff. The Inspector     Investigations, Contractor Background
                                           General attended all Integrity Committee meetings during     Investigations, and Security of Personnel




                                                                                                                                                Page 20
                                       FY 2001 OIG PERFORMANCE MEASURES

                                                     GOVERNMENT-WIDE ISSUES


  OBJECTIVES/STRATEGIES                                  OUTPUT MEASURES                                         OUTCOME MEASURES

1. Actively participate in ECIE/PCIE       FY 2001. In addition, the Inspector General met                  Data Files. Each report contained
   activities (CONTINUED)                  monthly with the financial regulatory agency Inspector           recommendations for improvements in
                                           General committee.                                               policies and procedures.



2. Participate in organizations that     Number of professional organizations and activities related to   Congress and OMB recognize benefits from
   directly contribute to the IG         Office work in which staff participate                           ECIE/PCIE activities
   community
                                           Staff are members of and participate in the activities of        The IG Community has achieved
                                           several professional organizations, including the                considerable results, which are described in
                                           Institute of Internal Auditors, Association of Directors of      the PCIE/ECIE Annual Report. In addition,
                                           Investigations, Information Systems Audit and Control            the report of the Senate Governmental
                                           Association, and American Institute of Certified Public          Affairs Committee entitled, Government at
                                           Accountants.                                                     the Brink, issued in June 2001, discussed
                                                                                                            much of the work performed by the IG
                                                                                                            community.




                                                                                                                                                  Page 21
                   MANAGEMENT RESPONSE OF
           THE SECURITIES AND EXCHANGE COMMISSION
 ACCOMPANYING THE SEMIANNUAL REPORT OF THE INSPECTOR GENERAL
     FOR THE PERIOD APRIL 1, 2001 THROUGH SEPTEMBER 30, 2001


Introduction

    The Semiannual Report of the Inspector General (IG) of the Securities and Exchange
Commission (SEC) was submitted to the Chairman on October 31, 2001 as required by the
Inspector General Act of 1978, as amended. The report has been reviewed by the Chief of Staff,
General Counsel, Executive Director, and Director of the Division of Enforcement. The
management response is based on their views and consultation with the Chairman.

      The management response is divided into four sections to reflect the specific requirements
listed in Section 5(b) of the Inspector General Act of 1978, as amended.

                                       Section I
                  Comments Keyed to Significant Sections of the IG Report

A. Audit Program

     During the reporting period, the IG issued eight audit reports, two investigative memoranda
on management issues, and three audit memoranda. Management generally concurred with the
findings and recommendations in the IG’s reports.

     In addition to audits performed by the agency’s IG, the General Accounting Office (GAO)
actively reviewed program and administrative functions of the SEC. A complete listing of all
GAO audit activity involving the SEC is attached as Appendix A.

B.   Response to Significant Problems

     No new problems were reported.

C. Response to Significant Problems Previously Identified

     The IG’s Semiannual Report identifies four significant problem areas: (1) sensitive
information, (2) collection of filing fees, (3) information resources management, and (4)
disgorgement waiver process. The IG’s Semiannual Report provides an updated description of
the actions SEC management has taken to strengthen these areas. Based on those actions, SEC
management no longer considers sensitive information, the collection of filing fees, and the
disgorgement waiver process significant problem areas. With respect to IRM, management is
continuing to work aggressively to strengthen this area, as reflected in the IG’s Semiannual
Report.
D. IG Recommendations Concerning Use of Funds

     None.

E.   Reports with No Management Decisions

    Management decisions have been made on all audits issued prior to the beginning of the
reporting period (April 1, 2001).

F.   Revised Management Decisions

     No management decisions were revised during the reporting period.




                                              2
SEC Management Response to
Semiannual IG Report
April 1, 2001 – September 30, 2001


                                          SECTION II
                                        Disallowed Costs
                                    As of September 30, 2001


                                                                   Dollar Value
                                                          Number   (in thousands)

A.     For which final action has
       not been taken by the
       commencement of the
       reporting period                                        0          $0

B.     On which management decisions
       were made during the reporting
       period                                                  0          $0

       (Subtotal A+B)                                          0          $0

C.     For which final action was
       taken during the reporting
       period                                                  0          $0

       (i)    Recovered by management                          0          $0

       (ii)   Disallowed by management                         0          $0

D.     For which no final action has
       been taken by the end of the
       reporting period                                        0          $0




                                               3
SEC Management Response to
Semiannual IG Report
April 1, 2001 – September 30, 2001


                                           SECTION III
                                      Funds Put to Better Use
                                     As of September 30, 2001


                                                                  Dollar Value
                                                         Number   (in thousands)

A.     For which final action has
       not been taken by the
       commencement of the
       reporting period                                    0             $0

B.     On which management decisions
       were made during the reporting
       period                                              0             $0

C.     For which final action was
       taken during the reporting
       period                                              0             $0

       (i)    Dollar value of recom-
              mendations that were
              agreed to by management                      0             $0

       (ii)   Dollar value of recom-
              mendations that management
              has subsequently concluded
              should/could not be
              implemented or completed                     0             $0

D.     For which no final action has been
       taken by the end of the reporting period            0             $0




                                                  4
                                                                                       SEC Management Response to
                                                                                       Semiannual IG Report
                                                                                       April 1, 2001 – September 30, 2001

                                                         SECTION IV
                                             Open Audit Reports Over One Year Old
                                                   As of September 30, 2001


                                               Funds Put to
                                                 Better Use         Questioned Costs
Audit #   Audit Title             Issued       (in thousands)        (in thousands)    Reason Final Action Not Taken

130       Management of the
          Data Center             11/18/89         $0                      $0          A number of policies and procedures
                                                                                       are being documented and adopted,
                                                                                       including a strategic plan for the Office
                                                                                       of Information Technology.

143       Information Resources
          Management              3/27/91          $0                      $0          Same as above.

159       Audit of Local Area
          Networks                2/16/93          $0                      $0          The remaining pending recom-
                                                                                       mendation concerns the imple-
                                                                                       mentation of prior audit and contractor
                                                                                       recommendations. Each of the prior
                                                                                       recommendations is being addressed
                                                                                       under its original report.




                                                                5
                                                                                          SEC Management Response to
                                                                                          Semiannual IG Report
                                                                                          April 1, 2001 – September 30, 2001



                                                            SECTION IV
                                                Open Audit Reports Over One Year Old
                                                      As of September 30, 2001


                                                  Funds Put to
                                                    Better Use         Questioned Costs
Audit #   Audit Title                 Issued      (in thousands)        (in thousands)     Reason Final Action Not Taken

220       IRM Planning and            3/26/96         $0                      $0           See explanation for audit #130.
          Execution

225       Collection of Filing Fees   2/8/96          $0                      $0           A replacement fee collection system
                                                                                           was implemented in September 2001.
                                                                                           SEC management completed corrective
                                                                                           actions for this audit after the end of
                                                                                           this reporting period.

238       International Telephone
          Service                     8/27/96         $0                      $0           The one remaining pending recom-
                                                                                           mendation focuses on the review of
                                                                                           telephone records. SEC management
                                                                                           is continuing consultations with
                                                                                           agency’s General Counsel’s Office.
                                                                                           The recommendation is expected to be
                                                                                           satisfied by June 2002.


                                                                   6
                                                                                       SEC Management Response to
                                                                                       Semiannual IG Report
                                                                                       April 1, 2001 – September 30, 2001


                                                           SECTION IV
                                               Open Audit Reports Over One Year Old
                                                     As of September 30, 2001


                                               Funds Put to
                                                 Better Use         Questioned Costs
Audit #   Audit Title                Issued    (in thousands)        (in thousands)     Reason Final Action Not Taken

243       SECOA Local Area
          Network                    3/21/97       $0                     $0            See explanation for audit #130.

250       Enhancing Excellence--
          Integrity Program          1/22/97       $0                     $0            A substantial number of the
                                                                                        recommendations have been
                                                                                        implemented. Several policy
                                                                                        documents are on hold until union
                                                                                        contract issues are resolved.

253       Administrative Proceedings 11/7/97       $0                     $0            An adjudicatory conference will be
                                                                                        held once there is an experience
                                                                                        factor to measure the overall results
                                                                                        of the NASD’s revised disciplinary
                                                                                        procedures.




                                                                7
                                                                                        SEC Management Response to
                                                                                        Semiannual IG Report
                                                                                        April 1, 2001 – September 30, 2001


                                                          SECTION IV
                                              Open Audit Reports Over One Year Old
                                                    As of September 30, 2001


                                              Funds Put to
                                                Better Use         Questioned Costs
Audit #   Audit Title               Issued    (in thousands)        (in thousands)    Reason Final Action Not Taken

257       Client Server             9/9/97        $0                     $0           See explanation for audit #130.

260       Value Engineering         5/2/97        $0                     $0           Value engineering plans are
          Program                                                                     expected to be completed by January
                                                                                      2002.

269       Database Administration   1/5/98        $0                     $0           See explanation for audit #130.

271       Property System           9/25/98       $0                     $0           Positions are being staffed in a new
                                                                                      infrastructure unit created to coordinate
                                                                                      deployment of new technology assets,
                                                                                      manage physical moves of computer
                                                                                      equipment, and maintain an inventory of
                                                                                      technology assets. Also, a contractor
                                                                                      has been hired to assess and recommend
                                                                                      more efficient approaches to asset
                                                                                      tracking.



                                                               8
                                                                                         SEC Management Response to
                                                                                         Semiannual IG Report
                                                                                         April 1, 2001 – September 30, 2001


                                                        SECTION IV
                                            Open Audit Reports Over One Year Old
                                                  As of September 30, 2001


                                            Funds Put to
                                              Better Use         Questioned Costs
Audit #   Audit Title            Issued     (in thousands)        (in thousands)    Reason Final Action Not Taken

272       Commission Review
          of SRO Rules           7/14/98        $0                     $0           The SEC’s IT Capital Planning
                                                                                    Committee consolidated several requests
                                                                                    for optical disk systems into an agency-
                                                                                    wide package. Efforts are underway to
                                                                                    identify a solution that meets several
                                                                                    needs.

273       Review of Investment
          Company Filings        6/26/98        $0                     $0           A contractor is conducting a require-
                                                                                    ments analysis.

274       Year 2000—Internal
          Systems (OIT)                                                             See explanation for audit #159.

275       Year 2000—EDGAR        12/21/99       $0                     $0           See explanation for audit #159.

                                                             9
                                                                                            SEC Management Response to
                                                                                            Semiannual IG Report
                                                                                            April 1, 2001 – September 30, 2001


                                                          SECTION IV
                                              Open Audit Reports Over One Year Old
                                                    As of September 30, 2001


                                              Funds Put to
                                                Better Use          Questioned Costs
Audit #   Audit Title              Issued     (in thousands)         (in thousands)    Reason Final Action Not Taken

282       Year 2000—Internal
          Systems (Non-OIT)        12/21/99       $0                      $0           See explanation for audit #159.

287       Boston District Office   10/23/98       $0                      $0           See explanation for audit #250.

293       Y2K Status Report--
          January 1999             1/25/99        $0                      $0           See explanation for audit #250.

296       UNIX Security            9/14/99        $0                      $0           See explanation for audit #130.

297       EDGAR Y2K Status--       3/19/99        $0                      $0
          March 1999                                                                   See explanation for audit #130.




                                                               10
                                                                                             SEC Management Response to
                                                                                             Semiannual IG Report
                                                                                             April 1, 2001 – September 30, 2001


                                                           SECTION IV
                                               Open Audit Reports Over One Year Old
                                                     As of September 30, 2001


                                               Funds Put to
                                                 Better Use          Questioned Costs
Audit #   Audit Title              Issued      (in thousands)        (in thousands)     Reason Final Action Not Taken

298       Commission Review of
          Periodic Reports         2/23/2000       $0                      $0           Management is attempting to identify
                                                                                        review goals that include areas such as
                                                                                        quality and complexity of reviews in
                                                                                        addition to number of reviews.

299       Data Backup Procedures   3/31/2000       $0                      $0           See explanation for audit #130.

301       Oversight of SIPC        3/31/2000       $0                      $0           The SEC is conducting an examination
                                                                                        of SIPC. The staff has completed the
                                                                                        field work and is drafting the report.




                                                                11
                                                                                     SEC Management Response to
                                                                                     Semiannual IG Report
                                                                                     April 1, 2001 – September 30, 2001


                                                      SECTION IV
                                          Open Audit Reports Over One Year Old
                                                As of September 30, 2001


                                          Funds Put to
                                            Better Use          Questioned Costs
Audit #   Audit Title         Issued      (in thousands)         (in thousands)    Reason Final Action Not Taken

308       EDGAR Hardship
          Exemptions          3/30/2000       $0                      $0           The recommendations are being
                                                                                   considered in connection with the next
                                                                                   EDGAR modernization rulemaking
                                                                                   initiative.
309       Telecommunication
          Vulnerabilities     3/31/2000       $0                      $0           The issue of establishing an audit system
                                                                                   for SEC telephone activity is under
                                                                                   review by the agency’s Office of
                                                                                   General Counsel. Corrective actions are
                                                                                   expected to be completed in June 2002.

312       Year 2000 Audits—
          Summary Closing     12/21/99        $0                      $0           See explanation for audit #130.


                                                           12
                                                                                              SEC Management Response to
                                                                                              Semiannual IG Report
                                                                                              April 1, 2001 – September 30, 2001

                                                            SECTION IV
                                                Open Audit Reports Over One Year Old
                                                      As of September 30, 2001


                                                Funds Put to
                                                  Better Use          Questioned Costs
Audit #   Audit Title               Issued      (in thousands)         (in thousands)      Reason Final Action Not Taken

314       Payroll Conversion        9/22/2000       $0                      $0             See explanation for audit #250.

323       Clearance Process         9/29/2000       $0                      $0             Several recommendations have been
                                                                                           implemented. Work on the remaining
                                                                                           recommendations is in progress and
                                                                                           is expected to be completed in March
                                                                                           2002.
M11       Part-time Employment
          Program                   10/21/98        $0                      $0             See explanation for audit #250.

M12       Control of Computer       12/29/98       $0                      $0            See explanation for #271.
          Equipment

M14       Contingency Testing       3/15/99         $0                     $0              See explanation for audit #130.

G314      Voluntary Contributions   8/8/2000       $0                      $0              Guidance is expected to be issued
          Guidance                                                                         in February 2002.

                                                                 13
                                                                   APPENDIX A


                          General Accounting Office Audit Activity
                      Involving the Securities and Exchange Commission


Reports Issued During the Reporting Period

1.     Evaluation of Steps Taken to Address the Problem of Unpaid Arbitration Awards, GAO-01-
       654R (April 2001)

2.     Financial Privacy: Too Soon to Assess the Privacy Provisions in the Gramm-Leach-Bliley
       Act of 1999, GAO-01-617 (May 2001)

3.     Securities Investor Protection: Steps Needed to Better Disclose SIPC Policies to Investors,
       GAO-01-653 (May 2001)

4.     SEC’s Report on Mutual Fund Fees, GAO-01-655R (May 2001)

5.     Securities and Exchange Commission: Reviews of Accounting Matters Related to Public
       Filings, GAO-01-718 (June 2001)

6.     On-line Trading: Investor Protections Have Improved but Continued Attention is Needed,
       GAO-01-858 (July 2001)

1.     SEC and CFTC: Most Fines Collected, but Improvements Needed in the Use of Treasury’s
       Collection Service, GAO-01-900 (July 2001)

8.     On-line Trading: Investor Protections Have Improved but Continued Attention is Needed,
       GAO-01-858 (July 2001)

9.     Information Systems: Opportunities Exist to Strengthen SEC’s Oversight of Capacity and
       Security (July 2001)

10.    Budget Scoring: Budget Scoring Affects Some Lease Terms, but Full Extent Is Uncertain,
       GAO-01-929 (August 31, 2001)

11.    Lost Security Holders: SEC Should Use Data to Evaluate Its 1997 Rule, GAO-01-978
       (September 2001)


Audits in Progress as of September 30, 2001

1.     SRO Structure. A study of the effect of changes in the securities and futures markets on
       the self-regulatory structure.
2.    Human Capital Management. A study of the human capital management policies and
      practices of the Securities and Exchange Commission.

3.    Amex Listing. A review of the American Stock Exchange’s process for listing securities.


4.    Money Laundering. A continuation of GAO’s review of issues related to money
      laundering and the securities industry.

5.    Unpaid Arbitration Awards. A review of the status of certain issues addressed in GAO’s
      June 2000 report, Securities Arbitration: Actions Needed to Address the Problem of
      Unpaid Awards.

6.    Foreign Entities of Proliferation Concern. A review of the U.S. Government’s
      monitoring of foreign entities of proliferation concern operating in the U.S. capital
      markets.

7.    Exchange Outages. A review of four separate market outages that occurred in June 2001
      at the New York Stock Exchange, Nasdaq Market, and International Securities Exchange.

8.    Small Entity Compliance Guides. A review of certain agencies’ implementation of
      section 212 of the Small Business Regulatory Enforcement Fairness Act of 1996.

9.    Financial Statement Audit Requirements. A review of whether financial statement audit
      requirements should be expanded to include certain agencies that are not required to have
      annual financial statement audits under the Chief Financial Officers Act or other laws.

10.   Day Trading Update. A review of the progress made by the SEC, New York Stock
      Exchange, NASDR, Inc., and the day trading firms to address certain issues identified in
      the industry.

11.   SEC Resources. A review of whether the SEC has sufficient resources to fulfill its
      statutory mission.

12.   Extensible Markup Language. A review of federal activities and plans for implementing
      the Extensible Markup Language.

13.   Enterprise Architectures. A review of enterprise architectures across the Federal
      Government.




                                               2
14.   Fraudulent Tax Schemes. A review of the IRS’s efforts to ensure that fraudulent tax
      schemes are identified and properly dealt with and that taxpayers fulfill their tax
      obligations. While most of the work is being conducted at IRS, GAO was asked to look
      into how IR coordinates its efforts to combat tax schemes with other relevant federal
      enforcement agencies such as the SEC, DOJ, and FTC.




                                             3
